Risk Reduction Through Voluntary Programs
                                                #7100130



Inspector General Division Conducting the Audit:
Northern Audit Division
Chicago, Illinois

Program Covered:
Air and Radiation

Program Offices Involved:
Atmospheric Pollution Prevention Division
Indoor Environments Division



                                            Table of Contents

EXECUTIVE SUMMARY

CHAPTERS

   1. INTRODUCTION

              Purpose
              Background
              Scope and Methodology
              Prior Audit Coverage

   2. VOLUNTARY PROGRAMS CAN BE AN EFFECTIVE TOOL FOR ACHIEVING
      ENVIRONMENTAL BENEFITS

              Role of Voluntary Programs in EPA
              Environmental Benefits of Voluntary Programs

   3. GOOD MANAGEMENT PRACTICES

              Planning Process
              Educating People About Incentives
              Providing Quality Support
              Working With Outside Organizations
              Obtaining Commitments
              Evaluating Progress and Making Adjustments
              Conclusion

   4. ESTIMATING ENVIRONMENTAL RESULTS
           Energy Star Programs
           Radon Program
           Conclusion

  5. IMPROVEMENTS NEEDED

           Improving Documentation of the Planning Process
           Defining Market Transformation
           Maintaining Energy Star Logo Integrity
           Reporting Radon Results

EXHIBITS

  1. CCAP ACTIONS AND SUPPORTING EPA PROGRAMS
  2. ENERGY STAR HOMES BUSINESS PLAN
  3. ESTIMATION OF ENVIRONMENTAL RESULTS

APPENDIX

  1. OFFICE OF AIR AND RADIATION'S RESPONSE TO DRAFT REPORT
  2. ABBREVIATIONS
  3. DISTRIBUTION
